December 20, 2005


MEMORANDUM FOR:            EMILY STOVER DE ROCCO
                           Assistant Secretary for Employment
                            and Training




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Management Letter 06-06-001-03-390
                           Items to Consider for Effective Implementation of the
                           National Emergency Grant Awarded to the Texas
                           Workforce Commission for Hurricanes Katrina and
                           Rita Relief

INTRODUCTION

Normally, a Management Letter is provided to be read in conjunction with an
accompanying audit report. However, due to the proactive nature of our current
work related to Hurricanes Katrina and Rita, we will be issuing Management
Letters to inform the Department, in this case, the Employment and Training
Administration (ETA), of issues/problems we believe should be disclosed to help
the Department’s programs operate efficiently and effectively while reducing the
possibility of fraud, waste, and abuse. We will also use this medium to provide
positive feedback regarding grant operations.

BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts resulting in a national disaster. In response to this disaster, on
September 7, 2005, ETA awarded the State of Texas a National Emergency
Grant (NEG) to assist over 37,500 Louisiana and Mississippi evacuees who were
displaced by the hurricane. The $75 million grant, administered by the Texas
Workforce Commission (TWC), had an initial release of $23.5 million.

This Management Letter is an interim reporting mechanism and should be read
with the understanding that, once the NEG to the Texas Workforce Commission
(TWC) is fully implemented and accrued expenditures reported, financial or
performance audits of the subject NEG may be performed.
SCOPE

During the period of October 24, 2005, through November 10, 2005, we
performed work at TWC, 2 Local Workforce Development Boards (LWDBs), and
5 temporary jobs worksites (3 for Southeast Texas area -- Port Arthur -- and 2 for
Gulf Coast area – Houston) out of the total of 41 worksites operated by the
LWDBs we visited. The worksites were established to provide public service
employment to Hurricane Katrina evacuees or residents of areas affected by
Hurricane Rita. These worksites included participants working at local
government agencies and school districts. We interviewed 25 of the 313 NEG
participants at the LWDBs we visited.

Our goal is to assist ETA in its efforts to ensure that NEG funded programs are
effective and to reduce the potential for fraud, waste, and abuse.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the examination of relief efforts provided by the
Federal government in the aftermath of Hurricane Katrina and Rita. Upon
issuance in final, a copy of this Management Letter will be forwarded to the PCIE
Homeland Security Working Group, which is coordinating Inspectors General
reviews of this important subject.

RESULTS

Southeast Texas Workforce Development Board

On November 8 and 9, 2005, we performed procedures at the Southeast Texas
Workforce Development Board (Southeast Texas) in Port Arthur, Texas. At the
time of our visit, TWC had allocated $2.4 million to Southeast Texas to assist
victims located in their region in obtaining temporary jobs, core and intensive
services, supportive services, and training, and to fund program administration
costs.

We gained a general understanding on how NEG funds had been expended, to
date, and Southeast Texas’ plans and needs for future funding. In addition, we
visited a worksite in Port Arthur and two in Beaumont, Texas.

As of November 8, 2005, we were told that approximately $2 million either had
been expended or was payable for public service employment (PSE) positions in
November.

Based on guidance from Southeast Texas, the four Texas Workforce Centers of
Southeast Texas (One-Stops) had established 17 agreements with school
districts and other local government entities to fill temporary PSE positions.



                                        2
These local entities included county departments, i.e. Public Works or Solid
Waste, etc., that generally had multiple worksites for participants.

As of November 8, 2005, 276 individuals were reported as currently employed in
PSE positions. An additional 300 individuals were reported to have received
supportive services in connection with obtaining unsubsidized employment.

Gulf Coast Workforce Development Board

On November 9 and 10, 2005, we performed procedures at the Gulf Coast
Workforce Development Board (Gulf Coast) in Houston, Texas. At the time of
our visit, TWC had allocated $5.3 million to Gulf Coast to assist victims located in
the region in obtaining temporary jobs and training, as well as supportive, core,
and intensives services.

We gained an understanding on how NEG funds had been expended, to date,
and Gulf Coast’s plans and needs for future funding. In addition, we also visited
two worksites where Louisiana teachers evacuated as a result of Hurricane
Katrina were working as tutors in Houston area schools.

As of November 9, 2005, Gulf Coast had expended very little of the NEG funds
and was in the process of issuing checks to vendors contracted to fulfill NEG-
related activities.

Positive Issue:

   •   The PSE job worksites we visited and related job positions were
       allowable, and all participants interviewed met eligibility criteria.

The five worksites we visited in SE Texas and Gulf Coast indicated that PSE
participants were working on activities useful to the school districts and local
governmental entities.

Potential Issues:

We believe that the following items will possibly be of use in your management
and oversight of the NEG grant to TWC.

   •   The delivery of workforce services under the NEG is hampered by
       the lack of contact information regarding evacuees who have
       relocated from temporary shelters.

The Federal Emergency Management Agency’s (FEMA’s) database of evacuee
applicants may be useful in locating evacuees and tracking their movement.
TWC has requested access to FEMA’s evacuee data, and FEMA has advised us
that approval of the request is pending. Also, TWC has initiated a $1.6 million


                                         3
outreach effort to encourage evacuees to register at the nearest workforce career
center.

   •   Texas’ LWDBs are reluctant to provide needs-related payments to
       evacuees in the absence of information about financial assistance
       from FEMA and the Red Cross or other non-profit providers.

Arrangements for the TWC and LWDBs to receive information about such
financial assistance will be needed to assure that significant evacuee needs are
being met effectively.

   •   The 6-month and $12,000 limits for individuals hired in temporary
       positions restrict service delivery in some cases.

TWC plans to ask for a waiver of the limits to address longer-term needs. For
example, TWC may focus on hiring NEG temporary employees for positions in
the schools because of the number of new student evacuees and their high need
for remedial education. School districts have reported that their assessments
determined that many student evacuees are two grade levels behind their
counterparts in Texas. Many New Orleans evacuees especially need remedial
education assistance. The Texas Education Agency web site shows 65,000 or
more new students from Louisiana, according to TWC. As a result, consideration
is being given to hiring displaced teachers from Louisiana to assist in the Texas
schools.

   •   Priorities need to be established for serving victims of Hurricanes
       Katrina and Rita.

The NEG has been modified to serve Hurricane Rita-affected residents in Texas.
Thus, policy decisions are needed to establish priorities for service and to
maintain equity of service between victims of both hurricanes and Texas
residents versus Louisiana evacuees. Temporary hurricane relief jobs are now
being encouraged for Rita victims, whereas the grant initially was intended only
to provide humanitarian assistance for Katrina evacuees.

   •   Expanding allowable PSE activities to any public service
       employment may make it difficult to enforce the grant requirement
       that grantees maintain efforts previously funded by local revenue.

PSE activities in the Gulf Coast and Southeast Texas areas include some
governmental services that are not restricted to the clean-up or humanitarian
services, which were highlighted in the original NEG grant description.

In the Southeast Texas area, school district and local governmental PSE
worksites may have some activities that are not restricted to cleanup or direct
services to evacuees from Hurricane Katrina or victims from Hurricane Rita.


                                         4
In the Gulf Coast area, the school districts opened their doors to a number of
students evacuated to the area as a result of Hurricane Katrina. In an effort to
ease the impact this tragedy had on these students, Texas developed an
informal policy that Katrina evacuees would be treated the same as Texas
resident students, meaning that if resources were available for one, then they
would be made available for all. As a result, tutoring services funded under the
NEG are benefiting both Katrina evacuees and some Texas resident students
who were not affected by Rita. This raises the issue that NEG funds may be
supporting costs that should be borne by the state.

The original intent of the NEG to the State of Texas has been modified to permit
wider use of PSE positions to assist school districts and local governments that
have been adversely impacted by Hurricane Katrina evacuees or Hurricane Rita.
Consequently, the potential exists that NEG funding may be used for ongoing
services that may indirectly help the local government or school district recover
from damages or financial impact from the hurricanes, making it difficult to
enforce the original grant requirement that grantees maintain efforts previously
funded by local revenue.

Pending Waiver Requests

Both Gulf Coast and SE Texas have requested ETA’s approval of the following
waivers to NEG requirements:

      1. Extend PSE beyond 6 months.

      2. Increase the $12,000 PSE wage limit.

      3. Open PSE positions for Case Managers/Workers to not only Katrina
         evacuees, but all unemployed residents.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training evaluate
the issues raised in this Management Letter to determine how they might be
addressed by ETA and/or State officials.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that a Katrina Team had been organized by the
Office of National Response to assist impacted states in resolving questions and
to participate in monitoring the states’ activities. The Assistant Secretary
specifically agreed to: (1) work to help resolve issues related to sharing of
information among DOL, FEMA, and the Red Cross to enable the issuance of



                                        5
needs-related payments; (2) quickly review Texas’ request for an extension of
the 6-month limits for disaster relief and public service employment; and (3) work
with the State to resolve any ambiguity over the allowability of using NEG-
subsidized positions to serve individuals who are not Katrina evacuees. The
Assistant Secretary further stated that it was not clear that (1) a priority system
for Katrina- and Rita-affected individuals is necessary, since the grant calls for
separate tracking of the two groups, and (2) the use of subsidized public sector
jobs to increase the capacity of schools serving Katrina evacuees presents a
maintenance-of-effort issue. The Assistant Secretary’s response is included in
its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendation
resolved. It will be closed upon receipt of the results of ETA’s actions as
described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment

cc:   Steven Law
      Deputy Secretary

      Joseph Juarez
      Regional Administrator

      Larry Temple
      Director, Texas Workforce Commission




                                         6
7
8
